No. 19-172

In The

SUPREME COURT OF THE UNITED STATES

Edina Harsay
Petitioner
v.

University of Kansas
Respondent

PROOF OF SERVICE

i

I, Edina Harsay, do swear or declare that on this date, November 1, 2019, as
required by Supreme Court Rule 29 I have served three copies of the enclosed
PETITION FOR REHEARING OF AN ORDER DENYING A PETITION FOR A
WRIT OF CERTIORARI on each party to the above proceeding or that party’s
counsel, and on every other person required to be served, as listed below, by FedEx
express mail or by depositing in the United States mail, properly addressed and
with first-class postage prepaid.
The enclosed petition for rehearing was also sent by electronic mail to the listed
party, in addition to the mailing of the hard copies:
Michael C. Leitch, Attorney for Respondent, University of Kansas
245 Strong Hall, 1450 Jayhawk Blvd., Lawrence, Kansas 66045
mleitch@ku.edu, (785) 864-3276
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 1, 2019.

Edina Hiarsay
Petitioner, pro se

RECEIVE |
NOV 5 - ?rci i
OFFICE OFT
SUPREMF

r

